No. 19-123
IN THE

SHARONELL FULTON, ET AL., Petitioners,
V.

THE CITY OF PHILADELPHIA, ET AL., Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
BRIEF OF BAPTIST JOINT COMMITTEE FOR RELIGIOUS LIBERTY, THE PRESIDING BISHOP OF
THE EPISCOPAL CHURCH, GENERAL SYNOD OF
THE UNITED CHURCH OF CHRIST, AND THE
EVANGELICAL LUTHERAN CHURCH IN
AMERICA AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
K. Hollyn Hollman
Jennifer L. Hawks
BAPTIST JOINT COMMITTEE
FOR RELIGIOUS LIBERTY
200 Maryland Ave., NE
Washington, D.C. 20002
(202) 544-4226
bjc@bjconline.org
Counsel for Amicus Curiae
Baptist Joint Committee for
Religious Liberty

Mark W. Mosier
David M. Zionts
Counsel of Record
Nicole Antoine
Alexander N. Ely
Sarah Suwanda
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com
Counsel for Amici Curiae
August 20, 2020
Additional counsel listed on inside cover

Heather E. Kimmel
UNITED CHURCH OF CHRIST
700 Prospect Avenue East
Cleveland, OH 44115
Counsel for Amicus Curiae
United Church of Christ
Mary E. Kostel
Chancellor to the Presiding
Bishop of The Episcopal
Church
3737 Seminary Road,
PMB200
Alexandria, VA 22304
Counsel for Amicus Curiae
Presiding Bishop of the Episcopal Church

Thomas A. Cunniff
EVANGELICAL LUTHERAN
CHURCH IN AMERICA
8765 W Higgins Road
Chicago, IL 60631
Counsel for Amicus Curiae Evangelical Lutheran
Church in America

i
TABLE OF CONTENTS
INTEREST OF THE AMICI CURIAE ...................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .................................................... 4
ARGUMENT .............................................................. 7
I.

Smith Was Wrongly Decided, But Need
Not Be Overruled in This Case. ...................... 7

II.

The First Amendment Does Not
Prohibit Conditioning Receipt of a
Government Contract to Perform a
Government Function on Adherence to
a Nondiscrimination Policy. .......................... 14
A.

Preventing Discrimination In the
Delivery of Government Services
Is a Compelling Governmental
Interest That Offers Critical
Protection To Religious Liberty.......... 14

B.

A Government’s Ability To
Establish Policies for its Own
Programs Helps Ensure The
Viability of Governmental
Partnerships With Faith-Based
Groups. ................................................ 19

C.

Conditioning a Government
Contract to Perform a
Government Service on
Adherence to the Government’s
Nondiscrimination Policy Does

ii
Not Substantially Burden
Religion................................................ 21
CONCLUSION ......................................................... 30

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Agency for Int’l Dev. v. All. for Open
Soc’y Int’l, Inc.,
570 U.S. 205 (2013) .................................. 24, 25, 26
Bd. of Cty. Comm’rs, Wabaunsee Cty.,
Kan. v. Umbehr,
518 U.S. 668 (1996) .............................................. 27
Bowen v. Roy,
476 U.S. 693 (1986) .............................. 6, 10, 21, 27
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) .............................................. 11
Church of Lukumi Babalu Aye, Inc. v.
Hialeah,
508 U.S. 520 (1993) .............................................. 12
Employment Div., Dept. of Human
Resources of Oregon v. Smith,
494 U.S. 872 (1990) ...................................... passim
Espinoza v. Montana Dep’t of Revenue,
140 S. Ct. 2246 (2020) .............................. 20, 28, 29
Garcetti v. Ceballos,
547 U.S. 410 (2006) ........................................ 26, 27
Gillette v. United States,
401 U.S. 437 (1971) .............................................. 12
Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418, 424 (2006) ...................................... 11

iv
Heart of Atlanta Motel, Inc. v. United
States,
379 U.S. 241 (1964) .............................................. 15
Larson v. Valente,
456 U.S. 228 (1982) .............................................. 16
Lee v. Weisman,
505 U.S. 577 (1992) ................................................ 9
Lyng v. Northwest Indian Cemetery
Protective Ass’n,
485 U.S. 439 (1988) ...................................... passim
Maddonna v. United States Dep’t of
Health & Human Servs.,
No. 19-cv-03551, Dkt. No. 43 (D.S.C.
Aug. 10, 2020) ...................................................... 17
Masterpiece Cakeshop v. Colo. Civil
Rights Comm’n,
138 S. Ct. 1719 (2018) .................................... 12, 15
Nat’l Aeronautics & Space Admin. v.
Nelson,
562 U.S. 134 (2011) .............................................. 27
Our Lady of Guadalupe Sch. v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) .......................................... 20
Rust v. Sullivan,
500 U.S. 173 (1991) ...................................... passim
Sch. Dist. of Abington Twp., Pa. v.
Schempp,
374 U.S. 203 (1963) .......................................... 9, 13
Sherbert v. Verner,
374 U.S. 398 (1963) .................................... 9, 10, 22

v
Trinity Lutheran Church of Columbia,
Inc. v. Comer,
137 S. Ct. 2012 (2017) .......................................... 28
United States v. Lee,
455 U.S. 252 (1982) .............................................. 11
Wisconsin v. Yoder,
406 U.S. 205 (1972) ................................................ 9
Statutes
Religious Freedom Restoration Act, 42
U.S.C. § 2000bb-4 et seq. ........................................ 1
55 Pa. Code § 3700.61 ............................................... 25
55 Pa. Code §§ 3700.61 et seq. ................................... 16
55 Pa. Code §§ 3700.62.............................................. 22
62 Pa. Stat. § 2305..................................................... 24
Other Authorities
Exec. Order No. 13199, 66 C.F.R. 8499
(2001) .................................................................... 19
James Madison, MEMORIAL AND
REMONSTRANCE AGAINST RELIGIOUS
ASSESSMENTS (1785) .............................................. 8

1
INTEREST OF THE AMICI CURIAE 1
Amici are organizations and representatives who
serve religious institutions and individuals. Amici
support strong protections for the free exercise of religion, believe that Employment Division v. Smith,
494 U.S. 872 (1990), was wrongly decided, and were
part of the campaign to secure passage of the federal
Religious Freedom Restoration Act (“RFRA”), 42
U.S.C. § 2000bb-4 et seq. Amici further believe that,
in our pluralistic society, the free exercise of religion
is not burdened—to the contrary, it is advanced—
when government contractors voluntarily performing
public functions are asked to adhere to governmental
nondiscrimination policies.
The Baptist Joint Committee for Religious
Liberty (“BJC”) serves sixteen supporting organizations, including national and state Baptist
conventions and conferences. It is the only denomination-based organization dedicated to religious
liberty and church-state separation issues. It believes that strong enforcement of the First
Amendment is essential to religious liberty for all
Americans, and since 1936, has worked tirelessly to
support the free exercise of religion, including the
successful passage of RFRA.
Pursuant to Rule 37.6, Amici affirm that no counsel for a party authored this brief in whole or in part and that no person
other than Amici or their counsel made any monetary contributions intended to fund the preparation or submission of this
brief. Pursuant to Rule 37.3(a), all parties have given consent
to the filing of this brief or provided blanket consent to the filing of timely amicus briefs.
1

2
The Most Reverend Michael Bruce Curry is
the 27th Presiding Bishop of The Episcopal
Church, a hierarchical religious denomination in
the United States and seventeen other countries.
Under the Church’s polity, he is charged with
“[s]peak[ing] God’s words to the Church and to the
world, as the representative of [the] Church.” The
Church has adopted a resolution “affirm[ing] its support for religious freedom for all persons” and
“affirm[ing] religious freedom as a goal to be sought
in all societies.” The Church has also adopted a rule
which provides that “[n]o one shall be denied rights,
status or access to an equal place in the life, worship,
governance, or employment of [the] Church because
of race, color, ethnic origin, national origin, marital
or family status (including pregnancy or child care
plans), sex, sexual orientation, gender identity and
expression, disabilities or age, except as otherwise
specified [in Church rules].” In 2015, the Church
adopted a trial rite for the celebration of same-sex
marriage, and at the same time “honor[ed]” “the theological diversity of this Church in regard to matters
of human sexuality” and confirmed that no ordained
person “should be coerced or penalized in any manner” because of his or her “theological objection to or
support for” the Church’s action in adopting the trial
rite, and further required every bishop to “make provision for all couples asking to be married in this
Church to have access” to the trial rite.
The General Synod of the United Church of
Christ is the representative body of the denomination of the United Church of Christ, a Protestant
denomination with more than 800,000 members and
nearly 5,000 churches. The General Synod has con-

3
sistently spoken on issues of religious liberty and the
separation of church and state, resolving to “share
the blessings of our heritage of religious freedom,
and to sustain that precious heritage by extending
the right of religious freedom to groups with which
we are not in theological agreement,” as well as urging the restoration of religious liberty for all,
recognizing that “the United Church of Christ, a denomination devoted to religious liberty” must “raise
its voice in protest” when religious freedom is abrogated. The General Synod has also consistently
adopted social policy statements urging the full inclusion of all individuals in all institutions of society,
from marriage to the marketplace to ministry, regardless of their sexual orientation, race or ethnicity,
gender identity, religion, disability, economic status,
or citizenship, and was the first Protestant denomination to support a right to marriage for same-sex
couples.
The Evangelical Lutheran Church in America (“ELCA”) is the largest Lutheran denomination
in North America and is the fifth largest Protestant
body in the United States. The ELCA has over 9,000
member congregations which, in turn, have approximately 3.5 million individual members.
These
congregations are grouped into and affiliated with 65
synods that function as the regional organizations of
this church body. The ELCA was formed in 1988 by
the merger of the Lutheran Church in America, the
American Lutheran Church, and the Association of
Evangelical Lutheran Churches. The ELCA and its
predecessor denominations have continually declared
opposition to any attempts by government to curb
religious liberty through statutory or administrative

4
measures. The ELCA vigorously supports legislation
and policies to protect civil rights and to prohibit discrimination in housing, employment, and public
accommodations or services.
* * *
Amici hold differing theological views and maintain different religious teachings and practices
regarding a wide range of matters, including about
human sexuality and family relationships. Recognizing such religious diversity across the theological
spectrum, Amici respect the right of religious institutions to maintain and practice their own religious
tenets, including with respect to marriage. Amici are
likewise committed to protecting human dignity and
believe that nondiscrimination policies like the ones
enforced by the City of Philadelphia in its service
contracts serve an important purpose. Far from burdening the free exercise of religion, a government’s
ability to ensure that those who carry out government functions do so in accordance with that
government’s nondiscrimination policy advances the
cause of religious liberty.
INTRODUCTION AND
SUMMARY OF ARGUMENT
When religious organizations decide as part of
their ministry to contract with a state or local government to assist in the delivery of child-welfare
services, that is both laudable and valuable. Governments, religious organizations, and the people
have long benefitted from such governmental partnerships with religiously affiliated charitable groups.
Indeed, partnerships between the government and

5
faith-based groups playing a role in social services is
a strength of this country’s pluralistic tradition. At
the same time, no organization—religious or secular—is entitled to veto the government’s choices on
how a public program is to be run. Requiring government contractors to adhere to nondiscrimination
policies in their performance of a public function does
not burden religion. To the contrary, it protects the
integrity of government-funded services and religious freedom. Granting government contractors a
constitutional veto over nondiscrimination policies
would harm the cause of religious liberty.
We agree with Petitioners and their Amici that
Employment Division v. Smith, 494 U.S. 872 (1990)
is insufficiently protective of free exercise values and
was incorrectly decided. But the Court need not decide whether to overrule that precedent in this case,
because the City of Philadelphia’s nondiscrimination
policy would survive under any standard, whether or
not Smith remains good law.
The City has a clear compelling interest in prohibiting discrimination, particularly when such
discrimination occurs in the administration of a government program. In fact, in addition to its interest
in ensuring equal access to service and individual
dignity, the City’s nondiscrimination policy plays a
critical role in advancing religious liberty. Like
many nondiscrimination policies, the City’s Fair
Practices Ordinance protects against discrimination
on a number of grounds. Not only does it ensure that
foster care agencies cannot reject same-sex couples
on the basis of sexual orientation, it likewise guarantees that agencies cannot reject prospective families
on the basis of religion. The City’s nondiscrimination

6
policy also does not impose any burden, much less a
substantial burden, on the free exercise of religion.
There is no burden where internal government conduct incidentally affects religion, even where the
government’s conduct may significantly impact an
individual’s religious exercise. See Bowen v. Roy, 476
U.S. 693 (1986); Lyng v. Northwest Indian Cemetery
Protective Ass’n, 485 U.S. 439 (1988). That is particularly true where, as here, the government has
contracted with a private party for the performance
of a public function. Indeed, the City is free to condition participation as a government contractor based
on Catholic Social Services’ adherence to the City’s
nondiscrimination policy, even if it impinges on otherwise-protected conduct. Rust v. Sullivan, 500 U.S.
173, 192–93, 196 (1991).
If governments like the City of Philadelphia are
told that they may not contract out a social program
without losing the ability to ensure that the program
adheres to its public policy, many such governments
may decide to simply perform these services themselves through public employees, and not create
opportunities for faith-based organizations to play a
role. There is no question that such a choice would
be constitutional—and that it would be a loss for
those driven by their faiths to serve.
Ultimately, any qualified organization, religious
or otherwise, remains free to participate as a government contractor in helping the City carry out its
public duty of delivering foster care services. The
City properly requires that in carrying out this delegated public function, its contractors must adhere to
the City’s policy of not discriminating on the basis of
protected characteristics, including against individu-

7
als in same-sex marriages or with differing religious
beliefs, while certifying potential foster parents.
Nothing in the Constitution denies the City that latitude, and a decision to the contrary would ultimately
harm this country’s traditions of religious liberty and
cooperation between government and faith-based
service providers.
ARGUMENT
I.

Smith Was Wrongly Decided, But Need
Not Be Overruled in This Case.

Amici agree with Petitioners that Smith was
wrongly decided. While both legislative and judicial
developments since Smith have mitigated the negative consequences of that decision, the standard
adopted in Smith does not pay sufficient regard to
free exercise values and should be revisited in an appropriate case.
This, however, is not that case. At issue here is
the special circumstance of a religiously affiliated organization voluntarily choosing to contract with a
government agency to perform public functions that
the government must provide and has chosen to contract out. Because the City of Philadelphia has a
compelling interest in ensuring that its programs—
whether performed directly or through contractors—
are carried out in compliance with its nondiscrimination policies and in a manner that best protects the
children in its care and is respectful of the rights of
would-be foster families, the City should prevail under any standard. Deciding whether to overrule
Smith is unnecessary to resolve the case before the
Court.

8
Smith deviated from the constitutional text, history, and tradition, as well as this Court’s prior
precedents. The result was an interpretation of the
Free Exercise Clause that is insufficiently protective
of religious liberty and the principles of freedom of
conscience that undergird the Constitution’s protections for religious thought and practice. Smith’s
approach effectively shields free exercise claims from
the heightened review afforded to other constitutional protections. Yet “few States would be so naive as
to enact a law directly prohibiting or burdening a religious practice as such . . . If the First Amendment
is to have any vitality, it ought not be construed to
cover only the extreme and hypothetical situation in
which a State directly targets a religious practice.”
Smith, 494 U.S. at 894 (O’Connor, J., concurring).
Two particular problems with Smith stand out.
First, Smith paid insufficient attention to constitutional history and the founding-era evidence about
the scope of the Free Exercise Clause. Distilled to its
core, the Free Exercise Clause is a substantive right
protecting freedom of conscience and worship for individuals. As James Madison observed, religion
“must be left to the conviction and conscience of every man; and it is the right of every man to exercise it
as these may dictate. This right is in its nature an
unalienable right.” James Madison, MEMORIAL AND
REMONSTRANCE AGAINST RELIGIOUS ASSESSMENTS ¶ 1
(1785).
Before (and indeed after) Smith, the Supreme
Court has recognized that the free exercise of religion is a vital constitutional right rooted in freedom
of individual conscience. See, e.g., Lee v. Weisman,
505 U.S. 577, 591 (1992) (“The Free Exercise Clause

9
embraces a freedom of conscience and worship that
has close parallels in the speech provisions of the
First Amendment . . .”). Properly construed, the Free
Exercise Clause exists “to secure religious liberty in
the individual by prohibiting any invasions thereof
by civil authority. Hence it is necessary in a free exercise case for one to show the coercive effect of the
enactment as it operates against him in the practice
of his religion.” Sch. Dist. of Abington Twp., Pa. v.
Schempp, 374 U.S. 203, 223 (1963). Although it is
not the focus of this brief to provide such a detailed
historical analysis, an appropriately nuanced treatment of the clause would benefit from such an
inquiry—an important omission in Smith.
Second, Smith was in tension with other Supreme
Court case law from the moment it was decided. For
instance, in Wisconsin v. Yoder, in which Amish parents challenged compulsory school attendance, the
Court noted that “only those interests of the highest
order and those not otherwise served can overbalance legitimate claims to the free exercise of
religion,” and that “however strong the State’s interest in universal compulsory education, it is by no
means absolute to the exclusion or subordination of
all other interests.” 406 U.S. 205, 215 (1972). And in
Sherbert v. Verner, 374 U.S. 398 (1963)—a case concerning whether a member of the Seventh-day
Adventist Church could be compelled to work on
Saturdays—the Court found it was clear that the requirement of Saturday work “imposes a[] burden on

10
the free exercise of appellant’s religion.” Id. at 403. 2
In analyzing the law’s consistency with the Free Exercise Clause, the Court held that such a
requirement could be sustained only if the “burden
on the free exercise of appellant’s religion may be
justified by a ‘compelling state interest in the regulation of a subject within the State’s constitutional
power to regulate.’” Id.; see also Roy, 476 U.S. at 728
(O’Connor, J., concurring) (“Only an especially important governmental interest pursued by narrowly
tailored means can justify exacting a sacrifice of
First Amendment freedoms as the price for an equal
share of the rights, benefits, and privileges enjoyed
by other citizens.”).
There was no pressing need for the Court to depart from this prior precedent in Smith.
The
Sherbert balancing test was already, and appropriately, respectful of the governmental interest in
applying generally applicable laws even-handedly.
Determinations of when particular laws burden religious exercise to the point that the Constitution
mandates an exemption calls for judgment, and federal courts are well-suited to supply that judgment
in a case-by-case manner. See Smith, 494 U.S. at
899, 902 (O’Connor, J., concurring) (“[T]he sounder
As noted in the brief of the Support Center for Child Advocates and Philadelphia Family Pride, see IntervenorRespondent Br. 12–13, the government contracting aspect of
this case renders it distinct in meaningful ways from the Sherbert/Yoder line of cases, which generally have assessed the
Free Exercise implications of “direct regulation of private conduct or the provision of benefits to the public at large,” id. at 14,
rather than a voluntary choice to contract with the government
to perform a government function.

2

11
approach—the approach more consistent with our
role as judges to decide each case on its individual
merits—is to apply this test in each case to determine whether the burden on the specific plaintiffs
before us is constitutionally significant and whether
the particular criminal interest asserted by the State
before us is compelling.”).
The rule adopted in Smith was likely not even
necessary to reach the result of Smith. Indeed, “established free exercise jurisprudence” might
reasonably have supported the conclusion that the
State of Oregon had a compelling interest “in regulating peyote use by its citizens and that
accommodating respondents’ religiously motivated
conduct ‘will unduly interfere with fulfillment of the
governmental interest.’” Smith, 494 U.S. at 907
(O’Connor, J., concurring) (quoting United States v.
Lee, 455 U.S. 252, 259 (1982)).
Subsequent developments both in Congress and
the Judiciary have helped to avoid some of the potentially harmful consequences that religious liberty
advocates, such as Amici, feared would result from
Smith. For instance, the enactment of RFRA, for
which Amici campaigned, applies heightened scrutiny to governmental actions that interfere with
religious practices, requiring that the federal government use the least restrictive means possible to
achieve its compelling interests. See Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 737 (2014)
(Kennedy, J., concurring); see also Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S.
418, 424 (2006) (noting that RFRA “adopts a statutory rule comparable to the constitutional rule rejected
in Smith”). This test has proven both workable and

12
appropriately respectful of both religious exercise
and the government’s legitimate interests, resulting
in an approach that is similar to the pre-Smith
standard for federal law. Many state legislatures
have passed similar laws.
Additionally, this Court has properly recognized
that facially neutral and generally applicable laws
may in fact be pretextual attacks on religious exercise, or applied in a way suggesting animus toward
particular religious beliefs. 3 See Church of Lukumi
Babalu Aye, Inc. v. Hialeah, 508 U.S. 520, 534
(1993); Masterpiece Cakeshop v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719, 1731 (2018). This Court’s
cases “forbid[ing] subtle departures from neutrality,”
Gillette v. United States, 401 U.S. 437, 452 (1971),
have thus clearly survived Smith, even if reasonable
people could disagree on the application of these
principles in particular cases.
In short, in the view of Amici, Smith was not correctly decided. It does not, however, need to be
overruled to resolve the case now before the Court.
This is not a case about generally applicable laws
regulating the general public and in so doing incidentally burdening religious exercise. Rather, it
concerns voluntary contracting with a government to
perform a public function on its behalf. The standard for reviewing generally applicable laws that
burden religious exercise should be decided in a case
3 Amici recognize that Petitioners make that claim here, but the
district court found on the evidentiary record before it that
there was no pretextual attack or animus toward religion. See
Pet. App. 85a.

13
in which a generally applicable law burdens religious
exercise, not one in which a religiously affiliated organization wishes to be a contractor to perform a
governmental function without adhering to the government’s standards.
Religious institutions participating in government-administered social programs like foster care
services perform an immensely valuable function.
Indeed, the reality of faith-based groups playing such
a role in public life is a great strength of our pluralistic society. It is precisely because these services
are so important that an entity making a voluntary
choice to participate in such a public program is not
entitled to displace the government’s nondiscrimination laws and policies in administration of the
government’s own program.
Put another way, and as further explained below,
because the Free Exercise Clause exists “to secure
religious liberty in the individual by prohibiting any
invasions thereof by civil authority,” it is “necessary
in a free exercise case for one to show the coercive
effect of the enactment as it operates against him in
the practice of his religion.” Schempp, 374 U.S. at
223. A religious entity cannot make a showing of
such “coercive effect” when it makes a voluntary
choice to participate in carrying out the government
program in question. See Smith, 494 U.S. at 894
(O’Connor, J., concurring) (collecting cases) (“To say
that a person’s right to free exercise has been burdened, of course, does not mean that he has an
absolute right to engage in the conduct . . .”). The
proper result in this case does not depend on whether Smith is overruled.

14
II.

The First Amendment Does Not Prohibit
Conditioning Receipt of a Government
Contract to Perform a Government Function
on
Adherence
to
a
Nondiscrimination Policy.

The Free Exercise Clause does not require the
City to provide a contract to perform a government
function to a contractor unwilling to do so in the
manner prescribed by the government. A City’s nondiscrimination policy governing the performance of
public services represents a paradigmatic example of
a valid compelling interest. And requiring would-be
government contractors to carry out a government
function in line with public policy does not substantially burden religion. To the contrary: enforcing
nondiscrimination in the delivery of public services
advances the cause of religious liberty, and is a vital
predicate for the ability of faith-based organizations
to participate in social services on equal footing.
A.

Preventing Discrimination In the
Delivery of Government Services Is
a Compelling Governmental Interest That Offers Critical Protection
To Religious Liberty.

Hard cases can arise when a government’s important interests must be balanced against
substantial burdens on religious exercise. This is not
such a case. Here, the City’s nondiscrimination policy reflects not only a valid and compelling interest,
but one that advances religious liberty, rather than
infringes upon it. Nondiscrimination laws like the
Fair Practices Ordinance offer critical protection to
religious liberty in a pluralistic society, as do nondis-

15
crimination provisions included in government contracts.
The United States is comprised of a rich tapestry
of cultures, beliefs, and creeds. At our core, “we are a
cosmopolitan nation made up of people of almost every conceivable religious preference,’ . . . and [] we
value and protect that religious divergence.” Smith,
494 U.S. at 888–89 (internal citation omitted). Not
surprisingly, this intersection of varying religious beliefs and creeds leads to differences of opinion. And
yet the American experiment contemplates that individuals may not only coexist peacefully in spite of
their differences, but may participate in society with
equal dignity. This belief in human dignity, and that
individuals can peacefully coexist despite our differences, unifies Amici as a foundational matter of
faith.
It is also recognized in the law. As the Court has
confirmed, “[o]ur society has come to the recognition
that gay persons and gay couples cannot be treated
as social outcasts or as inferior in dignity and worth.”
Masterpiece, 138 S. Ct. at 1727. “[W]hile . . . religious and philosophical objections are protected, it is
a general rule that such objections do not allow business owners and other actors in the economy and in
society to deny protected persons equal access to
goods and services under a neutral and generally applicable public accommodations law.” Id.; see also
Heart of Atlanta Motel, Inc. v. United States, 379
U.S. 241, 260–61 (1964) (prohibition of discrimination in public accommodations does not interfere
with personal liberty). Ensuring respect for the
equal dignity of all people is certainly no less important when the government administers a

16
program, in this case one focused on the best interests of children that are in that government’s own
custody.
This Court’s recognition of the government’s compelling interest in prohibiting discrimination on the
basis of sexual orientation also applies to prohibiting
discrimination on the basis of religion. “The clearest
command of the Establishment Clause is that one
religious denomination cannot be officially preferred
over another.” Larson v. Valente, 456 U.S. 228, 244
(1982). Where, as here, a government delegates to a
contractor the responsibility for carrying out a government function, see 55 Pa. Code §§ 3700.61,
3700.62 et seq., it surely must be within that government’s power to prohibit those contractors from
discriminating against some, or all, religious denominations. That is exactly what the City’s Fair
Practices Ordinance, incorporated expressly into the
City’s contract with Catholic Social Services, does,
stipulating that a provider may not discriminate
based on a number of protected characteristics, including religion and sexual orientation. JA 654. If a
foster care agency were unwilling to accept a prospective family on the basis of its religion, the City’s
nondiscrimination policy would make that organization ineligible to receive a government contract.
Even if that agency had a religious reason for preferring some families over others, that cannot affect the
legitimacy of the government’s compelling interest in
enforcement of its nondiscrimination policy.
Such discrimination on the basis of religion is
hardly speculative. In fact, it is already happening.
For instance, a state-contracted foster care agency in
South Carolina, which only accepts families that

17
agree with the agency’s doctrinal statement and who
are active members of a particular church, excluded
a prospective foster parent “because of her Catholic
faith.” Maddonna v. United States Dep’t of Health &
Human Servs., No. 19-cv-03551, Dkt. No. 43, at 1
(D.S.C. Aug. 10, 2020). Some people of faith might
sincerely believe that it would be detrimental to
place a child with a family of a different religious
faith. For example, they might see placing a child
with a parent or parents of a certain religion as endangering that child’s spiritual wellbeing—either by
depriving the child of the opportunity to observe spiritually necessary religious practices, or by subjecting
that child to what they believe are spiritually harmful practices.
Others might oppose interfaith
marriage and be unwilling to play a role in a child
being placed in such an environment. Or, someone
with secular beliefs might hold the view that any religious affiliation would not be in the best interests of
the child, and could therefore discriminate against
religious families.
To be very clear, Amici do not intend to denigrate
such beliefs. They represent entirely legitimate reasons not to volunteer to contract with the
government to perform foster care services on its behalf. At the same time, if the City were not allowed
to prohibit its contractors from discriminating,
would-be foster parents could face governmental discrimination for their religious beliefs. The City’s
decision to require government-sponsored foster care
agencies to consider all qualified parents thus ensures that all communities—including religious
communities—are treated by their government with
equality and dignity. It also furthers the ultimate

18
purpose of a public program for foster placement:
safeguarding the best interests of children within the
government’s custody by recruiting the broadest possible pool of qualified foster parents to care for them.
Contrary to Petitioners’ suggestion, the City’s
compelling interest in prohibiting discrimination
does not become less valid or compelling merely because other contractors are willing to adhere to the
City’s nondiscrimination policies. See Pet. Br. 36. If,
for example, a city placed a sign on certain public
buses saying “No Baptists Allowed,” it would hardly
be a defense to say that the city operates other buses
on which Baptists are permitted. A prospective foster parent that is rejected for being Baptist, or for
being in a same-sex marriage, or another protected
characteristic, is likewise a victim of discrimination,
whether or not some other agency is willing to consider them. Rejection as a foster parent by an
agency carrying out a delegated government function, whether for reasons of sexual orientation or
religion, carries with it the sting of public rejection,
and at least the implication of state-sanctioned discrimination. These harms are grave and destructive
to the human dignity in a pluralistic society. To require the City to allow its contractors carrying out a
public mission to discriminate on the basis of prospective parents’ sexual orientation—or on the basis
of their religion or other protected characteristic—
would gravely undermine the City’s compelling interests.

19
B.

A Government’s Ability To Establish Policies for its Own Programs
Helps Ensure The Viability of Governmental Partnerships With FaithBased Groups.

The ability of a government to require its contractors to adhere to a nondiscrimination policy also
protects religion in another way: it is a bulwark for
religious participation in the delivery of social services. Amici greatly respect and value the religious
reasons behind an organization’s mission to help
children find loving homes. Faith-based groups are
often inspired by their religious values to partner
with government entities in beneficial social programs, and Catholic Social Services is a prime
example of the good that a faith-driven organization
can do. This is beneficial for both faith-based organizations and government, but most of all the people
that benefit from these services—here, the children
in need of safe homes. Because of this, the federal
government has sought to encourage inclusion of religiously affiliated organizations in performing public
services, particularly those directed at helping the
needy, and “welcome[d] them as partners.” Exec.
Order No. 13199, 66 C.F.R. 8499 (2001) (establishing
White House Office of Faith-Based and Community
Initiatives).
But this whole enterprise would falter if participation by religious organizations means dictating
public policy. Allowing the views of religious partners to control policy in this way risks improper

20
entanglement. 4 And if governments like the City of
Philadelphia are told that they may not contract out
a social program without losing the ability to ensure
the program adheres to public policy, many such
governments may well decide to simply perform
these services themselves through public employees.
Cf. Espinoza v. Montana Dep’t of Revenue, 140 S. Ct.
2246, 2261 (2020) (explaining that, in holding that
subsidies for private education must extend to religious and non-religious institutions alike, “[a] State
need not subsidize private education”). Such a decision would be perfectly constitutional, but would
mean fewer opportunities for participation in some
kinds of religiously meaningful work, like helping
the City recruit and support stable families to temporarily care for abused and neglected children in
the City’s custody. That would hardly be a victory
for religious liberty.
The City’s nondiscrimination policy thus makes it
possible for the City to delegate a role in foster
placement services; for religious and secular agencies
alike to participate on equal footing in that public
program; for the City to ensure it is not compromising on its ability to place the children within its
custody in appropriate homes; and for the City to enThe Court recently affirmed the constitutional independence
of churches and other religious institutions to decide “matters
of faith and doctrine,” noting, however, that it did not entail a
“general immunity from secular laws.” Our Lady of Guadalupe
Sch. v. Morrissey-Berru, 140 S. Ct. 2049, 2060 (2020). Protection of a religious entity’s internal decisions about faith and
doctrine cannot dictate government policies or alter government’s ability to decide how to operate its programs.

4

21
sure that prospective parents are not singled out for
rejection on the basis of their religion, their sexual
orientation, or other protected characteristics. Far
from burdening religious liberty, the City’s choice
protects the religious liberty of prospective foster
parents and ensures that faith-based organizations
have the ability to serve.
C.

Conditioning a Government Contract to Perform a Government
Service on Adherence to the Government’s
Nondiscrimination
Policy Does Not Substantially Burden Religion.

The City could not burden the free exercise of religion where, as here, it merely requires
organizations contracting with the City to fulfill a
government function in compliance with its nondiscrimination policy. There is no free exercise right to
extract a subsidy for religious work in a government
program that contravenes the City’s own, democratically determined conception of the public interest.
To begin, there is no free exercise burden where
internal government conduct incidentally affects religion, even where the government’s conduct may
significantly impact an individual’s religious exercise. See Roy, 476 U.S. at 699–700 (holding that
requirement that appellees obtain and use a Social
Security number to access public benefits did not violate the Free Exercise Clause even though it
impacted appellees’ religious practices); Lyng, 485
U.S. 439 (holding that government plan to build a
road through a forest sacred to appellants’ religion
did not burden their free exercise). As the Court ob-

22
served in Roy, “[t]he Free Exercise Clause simply
cannot be understood to require the Government to
conduct its own internal affairs in ways that comport
with the religious beliefs of particular citizens.” 476
U.S. at 699–700. That is true even where “the challenged
Government
action
would
interfere
significantly with private persons’ ability to pursue
spiritual fulfillment according to their own religious
beliefs.” Lyng, 485 U.S. at 449.
Nor does this case involve a “condition[] upon
public benefits,” such that an exception for religious
conduct would be necessary. Sherbert, 374 U.S. at
404–05 (holding that denial of unemployment benefits based on petitioner’s religious refusal to work on
the Sabbath violated the Free Exercise Clause because it “puts the same kind of burden upon the free
exercise of religion as would a fine imposed against
appellant for her Saturday worship”). The opportunity at issue in this case is the ability to contract
with the City to provide a public service on behalf of
the City, namely, certifying potential foster families.
Contracting with the City to certify foster families on
behalf of the City—a delegated government function
that is paid for by the public5—is not a “public benefit” akin to receipt of unemployment payments. Cf.
id. at 404. It is not a benefit available to all, and it
does not subsidize private action. 6 Nor is conditioning receipt of a government contract to perform a
5

See 55 Pa. Code §§ 3700.61, 3700.62 et seq.

6 This case does not implicate private adoptions, but rather the
government’s discharge of its responsibilities to children in its
own custody. See Intervenor-Resp. Br. 24.

23
government function on the contractor’s agreement
to follow the City’s nondiscrimination policy a “fine”
on worship. Id. Instead, Catholic Social Services
seeks to assert a “veto over public programs” that do
not comport with its religious views. Lyng, 485 U.S.
at 452. Thus, here, as in Lyng, “[w]hatever rights”
Catholic Social Services may have to apply to be a
government contractor certifying potential parents in
the foster system, “those rights do not divest the
Government of its right to [direct] what is, after all,
its [foster program.]” Id. at 453.
That the government’s management of its internal affairs does not burden religion is particularly
true where, as here, the government conduct involves provision of government contracts to private
entities to perform a public service. The government
is free to condition funding for a government program on the recipient’s willingness to adhere to the
government’s public policy goals as long as those
goals are constitutional while implementing the government’s program, even if implementing those
policy goals impinges on otherwise-protected conduct. See Rust, 500 U.S. at 192–93, 196 (holding that
rule prohibiting projects receiving funding through
Title X of the Public Health Services Act from counseling or referring women regarding abortion did not
violate the First Amendment).
Thus, as this Court has explained, the government can constitutionally require the recipient of
government funding to use those funds in the manner prescribed by the program, so long as the
government’s requirements do not extend to the recipient’s conduct outside the program. Id. at 196–98.
The relevant distinction is whether the conditions

24
“define the limits of the government spending program,” by “specify[ing] the activities Congress wants
to subsidize,” or “seek to leverage funding to regulate
speech outside the contours of the program itself.”
Agency for Int’l Dev. v. All. for Open Soc’y Int’l, Inc.,
570 U.S. 205, 218 (2013) (holding that government’s
requirement that participating organizations entirely adopt a specific view violates the First
Amendment because it “compels as a condition of
federal funding the affirmation of a belief that by its
nature cannot be confined within the scope of the
Government program”).
The recipient of the government funding therefore
does not give up their right to speak on contrary
views—or, as here, to maintain and exercise their
religious views—only the right to speak or act on
those views through the particular project funded by
the government. Rust, 500 U.S. at 197. In doing so,
“the Government is not denying a benefit to anyone,
but is instead simply insisting that public funds be
spent for the purposes for which they were authorized.” Id. at 196. That is wholly constitutional. Id.;
Agency for Int’l Dev., 570 U.S. at 218.
And it is exactly the situation here. The City has
a valid interest in administering a public program to
be run in accord with its own public policies, and the
City’s nondiscrimination policy is indisputably an
important public policy. If anything, the rationale
behind Rust is doubly true here. Certifying potential
foster families is a core government function, one
that the City has a “duty” to provide under state law.
See 62 Pa. Stat. § 2305 (“The local authorities of any
institution district shall have the power, and . . . duty to provide those child welfare services designed to

25
. . . provide in foster family homes or child caring institutions adequate substitute care for any child in
need of such care.”). The City is not merely funding
a program to further policy goals, as the federal government was in Rust, but “delegat[ing]” to a private
entity a mandatory government function to perform.
55 Pa. Code § 3700.61.
The nondiscrimination provision is intimately
linked to that core function. The City’s policy ensures that the opportunity to foster a child is
available to all people who can provide a safe environment for children in need of a home, and that this
opportunity is not denied on account of protected
characteristics. Further, the nondiscrimination provision only applies to the organizations’ actions
within that program performing that function. Cf.
Agency for Int’l Dev., 570 U.S. at 218. It does not
leverage the program to compel Catholic Social Services, or any other agency, to adopt the City’s
viewpoint outside the program. See id. As the City
has repeatedly affirmed, Catholic Social Services is
free to espouse and follow its views on same-sex marriage outside the confines of government-sponsored
foster-family certification. The City has continued to
contract with another organization, Bethany Christian Services, to provide family-certification services,
though Bethany Christian opposes same-sex marriage. The City requires that Bethany Christian not
discriminate against potential foster-placement parents in same-sex marriages while it performs a
delegated governmental function—and Bethany
Christian is adhering to that requirement.
Neither is Catholic Social Services barred from
providing other foster care services under the auspi-

26
ces of the City. The City still contracts with Catholic
Social Services to provide child welfare services, including congregate care services and case
management services. Pet. App. 16a, 187a; JA 208–
09, 505. Catholic Social Services just cannot vet and
certify potential foster families, unless Catholic Social Services is willing to follow the City’s
nondiscrimination policies in carrying out that government function on its behalf.
Far from
“leverag[ing] funding to regulate [religion],” Agency
for Int’l Dev., 570 U.S. at 218, the City is merely ensuring that the City’s duty of vetting and
certification of potential foster families is carried out
in conformity with the City’s nondiscrimination policies and its objective of identifying a broad pool of
qualified foster parents to care for children in need.
This Court’s cases concerning the free speech
rights of public employees present a useful analogy.
The First Amendment of course protects an individual’s right to criticize the government, but public
employees lack a free speech right to contradict the
government’s policy while performing government
functions. See Garcetti v. Ceballos, 547 U.S. 410,
421–22 (2006). Indeed, “[r]estricting speech that
owes its existence to a public employee’s professional
responsibilities does not infringe any liberties the
employee might have enjoyed as a private citizen. It
simply reflects the exercise of employer control over
what the employer itself has commissioned or created.” Id.
The same is true here, the only difference being
that the City has contracted out a government function to a private contractor, rather than hired its own
employees to perform the same function. Just as a

27
government can limit its employees’ on-the-job
speech without running afoul of the First Amendment, so too can a government require its
contractors, who voluntarily agree to perform a government function, to do so in a manner consistent
with its public policies. See, e.g., Nat’l Aeronautics &
Space Admin. v. Nelson, 562 U.S. 134, 150, 153
(2011) (holding, in the context of constitutional challenge to background checks, that government’s
interest in managing contractors was as strong as its
interest in managing employees); see also Bd. of Cty.
Comm’rs, Wabaunsee Cty., Kan. v. Umbehr, 518 U.S.
668, 673–74 (1996) (explaining in the context of free
speech protections for government contractors that
the “similarities between government employees and
government contractors with respect to this issue are
obvious”); Rust, 500 U.S. at 198–99 (explaining that
the free speech rights of employees of organizations
receiving federal grants were not impinged by the
grant program’s restrictions on speech).
Here, Catholic Social Services’ refusal to certify
potential foster families because of its religious beliefs on same-sex marriage is done pursuant to its
duties as a government contractor implementing the
public foster care system. Similar to Garcetti, the
government’s enforcement of a nondiscrimination
policy in the operation of those public duties is fully
within the government’s power to ensure that government contractors implement the government’s
mission while performing public duties.
These cases confirm that the Free Exercise
Clause cannot compel the government to modify a
public program to align with Petitioners’ beliefs.
Roy, 476 U.S. at 699–700 (“The Free Exercise Clause

28
simply cannot be understood to require the Government to conduct its own internal affairs in ways that
comport with the religious beliefs of particular citizens.”). This is the case even where the contract
involves services that the religious organization considers to be part of its ministry. See Pet. Br. 4. As
the Court explained in Lyng, “government simply
could not operate if it were required to satisfy every
citizen’s religious needs and desires.” 485 U.S. at
452. Indeed, as here, “[a] broad range of government
activities—from social welfare programs to foreign
aid to conservation projects—will always be considered essential to the spiritual well-being of some
citizens, often on the basis of sincerely held religious
beliefs.” Id. If import and sincerity were the only
deciding factors for whether a religious belief required government accommodation, there would be
no limit to the number of concessions required.
Many different religious doctrines will interact with
many different government services, and the Court is
rightly loathe to second-guess the sincerity of belief
or the centrality of that belief to the religion. “The
First Amendment must apply to all citizens alike,
and it can give to none of them a veto over public
programs that do not prohibit the free exercise of religion.” Id.
Finally, contrary to Petitioners’ argument, see
Pet. Br. 51–52, this case is not like Trinity Lutheran
Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012
(2017), nor is it like Espinoza, 140 S. Ct. 2246. The
principle at stake in those cases was that “once a
State decides to [subsidize private education], it cannot disqualify some private schools solely because
they are religious.” Espinoza, 137 S. Ct. at 2261.

29
Thus, the key inquiry in Trinity Lutheran and Espinoza was whether the government’s policy
“disqualif[ies] otherwise eligible recipients from a
public benefit ‘solely because of their religious character.’” Espinoza, 140 S. Ct. at 2255 (quoting Trinity
Lutheran, 137 S. Ct. at 2021). The City’s policy does
not do so: the nondiscrimination policy applies to religious and nonreligious agencies alike. In fact, far
from disqualifying some foster care organizations because they are religious, the City welcomes
participation in this government function by religious and non-religious organizations alike, as
evidenced by their longstanding and continued participation in the program.
Consequently, the
nondiscrimination provision does not run afoul of
Espinoza because it does not bar participation based
on religious status. Espinoza, 140 S. Ct. at 2257. Ultimately, Catholic Social Services is free to act as a
government contractor and participate in the foster
parent vetting program while promoting its religious
beliefs in ways that are consistent with the Constitution and the government contract. Catholic Social
Services cannot, however, demand the opportunity to
perform a delegated government function while refusing to vet potential foster parents in same-sex
marriages, in violation of the City’s democratically
determined public policies. The City’s nondiscrimination policy, as applied to all its contractors, is both
perfectly constitutional and protective of religion, as
nondiscrimination provisions do as much to protect
religious communities as they do people of different
races, genders, and sexual orientation.

30
CONCLUSION
For the foregoing reasons, the judgment of the
Third Circuit should be affirmed.

31
Respectfully submitted,
K. Hollyn Hollman
Jennifer L. Hawks
BAPTIST JOINT COMMITTEE
FOR RELIGIOUS LIBERTY
200 Maryland Ave., NE
Washington, D.C. 20002
(202) 544-4226
bjc@bjconline.org
Counsel for Amicus Curiae
Baptist Joint Committee for
Religious Liberty
Heather E. Kimmel
UNITED CHURCH OF CHRIST
700 Prospect Avenue East
Cleveland, OH 44115
Counsel for Amicus Curiae
United Church of Christ
Mary E. Kostel
Chancellor to the Presiding
Bishop of The Episcopal
Church
3737 Seminary Road,
PMB200
Alexandria, VA 22304
Counsel for Amicus Curiae
Presiding Bishop of the Episcopal Church

August 20, 2020

Mark W. Mosier
David M. Zionts
Counsel of Record
Nicole Antoine
Alexander N. Ely
Sarah Suwanda
COVINGTON & BURLING
LLP
850 Tenth Street NW,
Washington, DC 20001
(202) 662-6000
dzionts@cov.com
Counsel for Amici Curiae
Thomas A. Cunniff
EVANGELICAL LUTHERAN
CHURCH IN AMERICA
8765 W Higgins Road
Chicago, IL 60631
Counsel for Amicus Curiae Evangelical Lutheran
Church in America

